WILMERHALE
Louis W. Tompros

October 6, 2020
Hon. Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

+1 617 526 6886 (t)
+1 617 526 5000 (f)

louis.tompros@wilmerhale.com

Arctic Cat Inc. v. Bombardier Recreational Products Inc. , et al., No. 20-355

Dear Mr. Harris,
I am counsel of record to Respondents Bombardier Recreational Products Inc. and BRP U.S. Inc.
in the above-captioned case. The response to the petition for certiorari in this matter is currently
due October 28, 2020. Due to the press of other business and the upcoming holidays, I
respectfully request a 40-day extension of time within which to file a response to the petition, to
and including Monday, December 7, 2020.
Respondents have not previously sought any extensions in this matter. Petitioner previously
received a 150-day extension to file the petition for certiorrui. See Misc. Order, 589 U.S. _
(Mar. 19, 2020). Petitioner does not oppose the requested extension.
Thank you for your consideration, and please do not hesitate to contact me if you require any
further information.

ot~~ /o.-lnefl~g(fsl
Yours sincerely,

Louis W. Tompros

Cc: John Caviness O' Quinn

W ilmer C utler Pickering H ale and Dorr LLP, 60 Srate Street, Boscon, Massachusetts 02109
Beijing

Berlin

Boston

Brussels

Denver

Frankfurt

London

Los Angeles

New York

Palo Alto

San Francisco

Washington

